              DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General




                                                                             Memorandum
Date:      August 22, 2002

From:      John I. Molnar
           Regional Inspector General for
              Evaluation and Inspections – New York

Subject:   Performance Data for the Senior Medicare Patrol Projects: August 2002 Performance
              Report (OEI-02-02-00560)

To:	       Edwin Walker, Director
           Office of Program Operations and Development
           Administration on Aging


           At the request of the Administration on Aging (AoA), the Office of Inspector General collects
           performance data for the Senior Medicare Patrol Projects. The attachments present cumulative
           performance data from the beginning of each project. Attachment A lists complete data for the
           12 projects that have operated since the inception in 1997. Attachment B presents the
           cumulative 3 years of work for 29 projects. Attachment C reflects performance data for 7
           projects with 2 years of experience. And, Attachment D contains the first year of data for 4
           new projects. Please note that the project data are self-reported and that we have not
           independently verified their accuracy.

           To date, the 52 Senior Medicare Patrol Projects have trained 31,173 volunteers. In-turn,
           869,472 beneficiaries have been reached at the 154,710 training sessions conducted by these
           volunteers. The beneficiaries have reported 19,342 complaints, of which 4,205 have been
           referred for follow-up. Almost 1,800 resulted in some action. In total, closed complaints have
           resulted in the recoupment of $3,008,937 in Medicare funds and, reportedly, $76,621,601 to
           other payors.

           In the past 6 months, a total of 5,259 volunteers have been trained and 218,504 beneficiaries
           were educated at the 49,213 training sessions conducted by the volunteers. A total of 4,244
           complaints have been logged since our last report. Documentation received in the past 6
           months provides evidence of $101,958 in Medicare funds recouped as a direct result of the
           projects. Another $14,503,878 has been recouped to other payors.

           Of the 52 grantees, 17 reported savings in the past 6 months. Of these 17 grantees, 11
           submitted Centers for Medicare & Medicaid Services contractor-based complaint tracking
           system reports. In comparison, in March 2002 we reported that four grantees submitted
Page 2 – Edwin Walker

tracking system reports. Of the money reported recouped in the past 6 months, $87,116 or 85
percent of the total dollars saved, were documented by the tracking reports.

We continue to emphasize that a significant number of the beneficiaries, who have learned to
detect fraud, waste and abuse from the Senior Medicare Patrol Projects, are calling the OIG
fraud hotline or other contacts, thereby, not giving the projects their full credit. In addition,
substantial savings, which cannot be tracked, may be derived from a sentinel effect whereby
fraud and errors are reduced in light of Medicare beneficiaries’ scrutiny of their bills.

At this time, we encourage AoA to develop a strategy to continue monitoring the Senior
Medicare Patrol Projects. We are fully prepared to work with AoA to develop and implement
that strategy. If you have any questions, please call me at 212-264-2000.

Attachments
                                                                                                                                                          APPENDIX A


                                 60-Month Outcomes Reported by the Senior Medicare Patrol Projects


            Activity                TOTAL           CA         HI          IA          IL         MD          MN         MO         NH         NY           PA         RI         WI

            OUTPUTS

# training sessions                       1,388           92         44         192          24        228          84         36         16        524           63         11         74

# trainers trained                      19,897         2,024        266      2,312          253    2,182           533        167        613     10,250          207        249        841

# media events                          21,614           204    4,236        2,367       1,292         259         452         65     1,090         376           60    7,152       4,061

# community education events              5,019           56         63         670         316    1,319           707        204        190        902          319         75        198

           OUTCOMES

total # trainers who have ever
conducted activities                      5,627          374        138         DK          244        106         237        167        519      3,493          143         23        183

# group sessions                          8,878        1,552        301      1,306       1,345         990         685        178        413        854          600        256        398

# beneficiaries at group sessions      350,890       68,764    10,520       41,267      50,313    21,304       13,913      7,978     28,451      29,852     60,622      5,633      12,273

# one -on-one sessions                  44,036           679          0         216         487    9,315           567     9,109     16,503       6,588          375        DK         197

total # beneficiaries educated         394,926       69,443    10,520       41,483      50,800    30,619       14,480     17,087     44,954      36,440     60,997      5,633      12,470

estimated # people reached by
community education events            9,088,192      31,678    17,814      313,165      16,901    80,164       25,178    246,305     42,745    258,287    8,010,022    23,123      22,810

# complaints received                   10,635           745        111      1,043          313    1,303           339         35     4,774         734          988         47        203

# complaints referred for
follow -up                                1,744          240         39         388          91        236         155         33        104        228           99         37         94

# complaints resulting in some
action                                      616           44        DK           41          10        104          62          8         38        219           40          6         44

Medicare $ recouped                  $2,763,570   $1,318,913        DK $1,147,524            $0        DK    $109,997      $132       $107     $31,038    $144,339           $0   $11,520

Other $ recouped                    $76,021,924     $74,914         DK $1,324,867     $146,485         DK     $27,956 $1,155,471    $74,646 $73,201,200     $1,935           $0   $14,450

Total $ recouped                    $78,785,494   $1,393,827         $0 $2,472,391    $146,485          $0   $137,953 $1,155,603    $74,753 $73,232,238   $146,274           $0   $25,970
                                                                                                                                                                        APPENDIX B
            36-Month Outcomes Reported by the Senior Medicare Patrol Projects


             Activity                TOTAL          AK          AL        AR        AZ          CO           CT         DC1         DC2         DE          FL        GA3        GA4         ID         IN

             OUTPUTS

# training sessions                       1,993          50          62      12          38            29         14          12            0         28         19         40     256            160         13

# trainers trained                        8,890        112        292       129         115           200       167           57     21              221      136       681       1,541           462        205

# media events                           15,295          44       105        35         482            36       804           32           14     4,697       955           35    1,001       1,569           40

# community education events              6,786          51       235        91         310                     602           40           22        101      136           24    1,462           167         83
                                                                                                      421

           OUTCOMES

total # trainers who have ever
conducted activities
                                          4,070          83       389        43         115            30         26          79           32         79         96     199        655            137         21

# group sessions                          8,716          32       342        92         285           382       113         165            91        294      163       321       1,782           594         44

# beneficiaries at group
sessions
                                        359,592      1,082      14,214    8,787      26,586      10,342       3,590       5,374       3,321       7,515     10,210     9,495     53,743      33,624      1,462

# one -on-one sessions                   85,825      2,290        354        51         222           151       232           10          744         94      455       539        555            435         36

total # beneficiaries educated          445,417      3,372      14,568    8,838      26,808      10,493       3,822       5,384       4,065       7,609     10,665    10,034     54,298      34,059      1,498

estimated # people reached by
community education events
                                      2,212,903     25,196      37,791    9,673      37,172 13,078           16,347     185,900      69,837     129,963    147,234     4,200 1,035,260        7,074     13,536

# complaints received                     8,079        443        140        50       1,965           115         76        310             0        118      536           10         28     1,207            7

# complaints referred for
follow -up
                                          2,326          22          65      14         143            16         31          53            0         20         17          5         18         564          7

# complaints resulting in some
action
                                          1,110             7         5      DK          22           DK           3           9            0          1          5          0          4         293          0

Medicare $ recouped                   $224,982           $0          $0      DK        $429          $453   $29,446      $1,329            $0    $5,388     $4,511          $0         $0   $10,970           $0

Other $ recouped                      $586,306    $13,495            $0      DK      $3,271      $3,450           $0          $0           $0         $0   $53,190          $0         $0 $266,797            $0

Total $ recouped                      $811,288    $13,495            $0      $0      $3,700      $3,903     $29,446      $1,329            $0    $5,388    $57,701          $0         $0 $277,767            $0
Please note these distinctions:
1. The AARP Foundation, DC        2. Friendship House, DC       3. Atlanta Regional Commission, GA      4. Department of Human Resources, GA
                                                                                                                                                             APPENDIX B
             36-Month Outcomes Reported by the Senior Medicare Patrol Projects


             Activity             MA           ME         MI          MT          NM        NV         OH         OK         OR         PR        TX5        TX6        UT        VA        WA

             OUTPUTS

# training sessions                      68         59         34          17          17         54          6          9         69        24         18         60        31        31      763

# trainers trained                      211        219        515          65       383          122        113         98        602     307       244        463        139        550       520

# media events                          194        130          4       2,588       207           66         99         36        262     127       213        100           37      356      1,027

# community education events            184        358         61        139        216           84        132        218         63     520       135        240        116        356       219

            OUTCOMES

total # trainers who have ever
conducted activities                    109        133         70          76          65         86         45         22        177        25     260        223        111        164       520

# group sessions                        271        223        155        102           79         73        304         31        157     274           72     381        113        783       998

# beneficiaries at group
sessions                              9,859      5,558    10,787        2,032      5,818     6,617      9,449      5,709     15,472      5,698     1,375     12,160      4,198     27,356    48,159

# one -on-one sessions                2,426        421         22        101       3,148          41    1,417           13        249    2,257      255        788       1,913         DK    66,606

total # beneficiaries educated       12,285      5,979    10,809        2,133      8,966     6,658     10,866      5,722     15,721      7,955     1,630     12,948      6,111     27,356   114,765

estimated # people reached by
community education events           15,871    19,182       3,886       2,843     33,679    14,278     28,081     37,001     14,028     17,291     8,249     29,346     22,050    137,521    97,336

# complaints received                   197         66        183          95       159          245         39         59         59    1,450          51     115           61      229         66

# complaints referred for
follow -up                               53         41         63           7          49         32         21         25         18     748           16         55        23      174         26

# complaints resulting in some
action                                   DK         16        N/A           0       116            2          1          0          5     541           13         27         2        15        23

Medicare $ recouped                      DK         DK   $17,320           $0     $5,263     $787       $395            $0        DK    $4,968          $0   $2,516          $0   $19,935 $121,272

Other $ recouped                   $51,949          DK   $15,626      $1,079 $155,893       $3,723           $0         $0        DK         DK         $0     $86      $4,485         DK   $13,262

Total $ recouped                   $51,949          $0   $32,946      $1,079 $161,155       $4,510      $395            $0         $0   $4,968          $0   $2,602     $4,485    $19,935 $134,534
Please note these distinctions:
 5. Baylor University, TX         6. The National Hispanic Council on Aging, TX
                                                                                                                           APPENDIX C
24-Month Outcomes Reported by the Senior Medicare Patrol Projects


                  Activity                TOTAL        LA         MS           NC         NE         SC         SD        WY

                  OUTPUTS

     # training sessions                       265           11          22         190         27          9         2          4

     # trainers trained                       2,117         110         217     1,078          390        115        81        126

     # media events                            872           36          43          72        664          8        26         23

     # community education events              535                      130         226         45         29        18         49
                                                             38

                OUTCOMES

     total # trainers who have ever
     conducted activities
                                               544           47         104         102        233         22        14         22

     # group sessions                          607           83         182         105        116         22        40         59

     # bene ficiaries at group sessions      16,915     1,293          5,188    2,125       4,304         840    1,028      2,137

     # one -on-one sessions                   6,152         181        5,215        360        264         55         8         69

     total # beneficiaries educated          23,067     1,474      10,403       2,485       4,568         895    1,036      2,206


     estimated # people reached by
     community education events
                                             99,802     2,751      11,074      25,493      46,357     5,960      2,242      5,925

     # complaints received                     607           41         354         103         20         43         7         39

     # complaints referred for
     follow -up
                                               129            7          16          28         11         38         2         27

     # complaints resulting in some
     action
                                                  66          3           0          17          1         21         1         23

     Medicare $ recouped                    $20,204          $0           0         140          0    7,274           0    12,790

     Other $ recouped                       $13,325          $0          $0     $108            $0         $0        $0   $13,217

     Total $ recouped                       $33,529          $0          $0     $248            $0   $7,274          $0   $26,007
                                                                                                                  APPENDIX D
12-Month Outcomes Reported by the Senior Medicare Patrol Projects


                         Activity                TOTAL          KY           NJ           TN           WV

                         OUTPUTS

             # training sessions                           87          46            2           39           0

             # trainers trained                           269          97           16          156           0

             # media events                               303         146            4          143          10

             # community education events                 445          86            1           40         318

                        OUTCOMES

             total # trainers who have ever
             conducted activities                         205         175            6           24           0

             # group sessions                             228         176            9           43           0

             # beneficiaries at group sessions        5,794          4,459         206         1,129          0

             # one -on-one sessions                       268         128            5          135           0

             total # beneficiaries educated           6,062          4,587         211         1,264          0

             estimated # people reached by
             community education events              50,224      46,707           1,000        2,199        318

             # complaints received                         21           1            3           17           0

             # complaints referred for
             follow -up                                     6           1            3            2           0

             # complaints resulting in some
             action                                         3           0            3            0           0

             Medicare $ recouped                         $181          $0         $181           $0          $0

             Other $ recouped                             $46          $0           $0          $46          $0

             Total $ recouped                            $227          $0         $181          $46          $0
